OFFICE OF INSPECTOR GENERAL



FOLLOW-UP AUDIT OF
USAID/SENEGAL’S
MONITORING OF SELECTED
AGRICULTURE AND NATURAL
RESOURCES MANAGEMENT
ACTIVITIES
AUDIT REPORT NO. 7-685-08-003-P
NOVEMBER 29, 2007




Dakar, Senegal

Office of Inspector General


November 29, 2007

MEMORANDUM

TO:                  USAID/Senegal Mission Director, Kevin Mullally

FROM:                Acting Regional Inspector General/Dakar, Abdoulaye Gueye /s/

SUBJECT:             Follow-up Audit of USAID/Senegal’s Monitoring of Selected Agriculture and
                     Natural Resources Management Activities (Audit Report No. 7-685-08-003-P)

This memorandum transmits our final report on the subject audit. This report does not contain any
recommendations for your action and does not include your comments as none were provided to
us.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
Ngor Diarama, Petit Ngor, BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS 

Summary of Results ....................................................................................................... 1


Background .....................................................................................................................2


Audit Objective .................................................................................................................. 2


Audit Findings .................................................................................................................3


Appendix I – Scope and Methodology .......................................................................... 5

SUMMARY OF RESULTS 

The Regional Inspector General/Dakar (RIG/Dakar) conducted this follow-up audit to
determine whether USAID/Senegal took appropriate actions to implement six
recommendations previously reported in the Audit of USAID/Senegal’s Monitoring of
Selected Agriculture and Natural Resources Management Activities, Audit Report No. 7
685-05-007-P, issued August 30, 2005. (See page 2.)

USAID/Senegal has fully implemented all six audit recommendations reported in the
original audit report. This conclusion is based on audit work that showed the following:

   •	 The Agriculture and Natural Resources Management (AG/NRM) staff revised
      several program indicators as recommended, and those revisions were
      incorporated into key program documents such as the partner’s contract and
      annual work plan.

   •	 The AG/NRM staff monitored and provided adequate oversight of the partner
      efforts in response to the original recommendations.

   •	 The partner hired a monitoring and evaluation (M&E) specialist who has
      conducted periodic supervisory visits, and who has developed procedures for an
      M&E system.

   •	 The partner has conducted four training sessions to provide instructions on
      accurate completion of field data collection forms and to provide guidance on
      other data quality issues.

   •	 The AG/NRM staff conducted two data quality assessments and data
      verifications in the two years following the original audit, surpassing the
      requirements contained in the Mission Order, and assessed the adequacy of the
      partner’s documentation to support its reported results.

   •	 The AG/NRM staff maintained sufficient documentation to support results
      reported in the most recent Annual Report. (See pages 3–4.)

USAID/Senegal indicated its appreciation for the audit through informal correspondence.
Since no recommendations were made and no further actions were needed, the Mission
did not submit formal comments on the draft report.




                                                                                      1
BACKGROUND 

In 2005, the Regional Inspector General/Dakar (RIG/Dakar) conducted an audit of
USAID/Senegal’s monitoring of selected agriculture and natural resources management
activities to determine whether the Mission monitored the activities to ensure that
intended results were achieved. The results of the audit were reported in the Audit of
USAID/Senegal’s Monitoring of Selected Agriculture and Natural Resources
Management Activities, Audit Report No. 7-685-05-007-P, issued August 30, 2005.

In its 2005 report, RIG/Dakar concluded that USAID/Senegal monitored the performance
of selected Agriculture and Natural Resources Management (AG/NRM) activities to
ensure that intended results were achieved. However, the auditors noted some
weaknesses in the monitoring process related to inconsistent results with expected
targets, a lack of oversight by the implementing partner, a lack of supporting
documentation for reported results by the implementing partner, and a lack of verification
and documentation of the data reported in the Mission’s Annual Report. RIG/Dakar
made six recommendations to address these weaknesses. The Mission concurred with
the recommendations and took final action, and the recommendations were closed
upon issuance of the report.

AUDIT OBJECTIVE
RIG/Dakar conducted this audit to answer the following question:

   •	 Did USAID/Senegal implement the recommendations from Audit Report No. 7
      685-05-007-P, Audit of USAID/Senegal’s Monitoring of Selected Agriculture and
      Natural Resources Management Activities?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                        2
AUDIT FINDINGS 

USAID/Senegal has taken appropriate actions to fully implement all six audit
recommendations reported in the Audit of USAID/Senegal’s Monitoring of Selected
Agriculture and Natural Resources Management Activities (Report No. 7-685-05-007-P)
issued August 30, 2005.

Recommendation No. 1 recommended that USAID/Senegal reevaluate the validity and
relevancy of existing indicators and targets of the overall success of program activities.
The Mission agreed to revise one indicator that was ambiguous and to adjust the targets
for four indicators. During this follow-up audit, the audit team found that the changes
had been made and were now reflected in key program documents. For example, the
revised description of the ambiguous indicator and adjusted targets for four indicators
were incorporated into the partner’s fiscal year 2006 annual report and contract.

Recommendations Nos. 2, 3, and 4 recommended that USAID/Senegal require the
implementing partner, International Resource Group (IRG), to do the following:

•	 Develop procedures to conduct and document periodic supervisory visits
   (Recommendation No. 2).
•	 Develop procedures and assign specific responsibility so that the monitoring and
   evaluation system operates as intended (Recommendation No. 3).
•	 Schedule training for the facilitators on proper completion of the different indicator
   data collection forms (Recommendation No. 4).

On July 11, 2005, the Mission issued technical instructions directing IRG to take the
actions specified in the recommendations.       Issuance of these instructions was
considered final action, and the recommendations were closed when the final report was
issued.

During this follow-up audit, the audit team found that IRG had taken the necessary
actions as instructed by the Mission. In addition, the Mission was proactive in its
monitoring and oversight of the partner to ensure that these actions were completed.
For example, the AG/NRM staff provided copies of procedures developed by IRG
addressing periodic supervisory visits that would be conducted by its monitoring and
evaluation (M&E) specialist, who was hired after the original audit. In addition, field trip
reports were prepared to document that the visits were occurring.

The AG/NRM staff also provided documentation of IRG’s M&E system procedures that
its M&E specialist developed. The procedures emphasized the importance of verifying
data and accurately reporting information collected in the field. The AG/NRM staff stated
that they have noticed improvements in the data and reporting from the partner,
indicating that the procedures were effective and being followed.

The AG/NRM staff also provided documentation showing that IRG had conducted
training sessions for its program facilitators in four project areas, in accordance with the
recommendations. This training provided guidance on completing the data collection
forms and covered the methodology for data verification and reporting standards, as well
as the procedures for evaluating indicator data and activity progress during site visits

                                                                                          3
with program participants. In addition, the IRG M&E specialist was reviewing the forms
as part of his supervisory visits and providing feedback to the facilitators when any errors
were found.

Recommendations Nos. 5 and 6 recommended that USAID/Senegal develop procedures
to do the following:

    •	 Require periodic verification of implementing partners to determine whether they
       are maintaining appropriate and sufficient documentation to support reported
       results (Recommendation No. 5).
    •	 Require that the AG/NRM team maintain supporting documentation for results
       and other data included in the Annual Report and document the cross-checking
       and verification of reported data (Recommendation No. 6).

The Mission concurred with the recommendations, and on July 11, 2005, the Mission’s
Program Office sent an e-mail reminding the AG/NRM staff of their responsibilities and
standards for spot checks and data quality assessments (DQAs), as well as the need to
assess the adequacy of the partners’ supporting documentation. On August 3, 2005, the
Mission updated its Mission Order (MO) 203-1 to require annual spot checking of data
submitted by contractors and grantees, and included a new form to document the spot
checks performed. These were considered final actions sufficient to close the
recommendations upon issuance of the final report.

At the time of this follow-up audit, the audit team found that the AG/NRM staff were
complying with the requirements in the Mission order for performing spot checks and
DQAs. In September 2005, the AG/NRM reported the results of a DQA performed in
July 2005. IRG data were also verified during another extensive DQA conducted in
December 2006. Conducting two DQAs in the two years following the original audit
fulfills and surpasses the Mission order and USAID’s Automated Directives System
requirements for DQAs and spot checking data. During those assessments, AG/NRM
staff also assessed the adequacy of the partner’s documentation to support its reported
results. The follow-up audit compared information included in the partner’s annual
reports to supporting documentation for fiscal years 2005 and 2006, and found that the
results of all three indicators selected were supported and accurate.

The revision to the Mission order also incorporated language specifying that the strategic
objective team leaders were responsible for ensuring that adequate documentation is on
file each year for data included in the Annual Report, and that the data should be
sufficiently disaggregated for verification purposes. The follow-up audit selected three
results reported in the Mission’s Annual Report for fiscal year 2005 and the Performance
Management Plan for fiscal year 2006, and obtained the supporting documentation. The
follow-up audit found that the results of all three indicators selected were supported and
accurate.




                                                                                          4
SCOPE AND METHODOLOGY 

Scope

The office of the Regional Inspector General/Dakar conducted this audit in accordance
with generally accepted government auditing standards. The purpose of the follow-up
audit was to determine whether USAID/Senegal took corrective actions and
implemented all six recommendations of the audit report entitled USAID/Senegal’s
Monitoring of Selected Agriculture and Natural Resources Management Activities,
Report No. 7-685-05-007-P dated August 30, 2005. The audit covered actions taken by
the Mission from August 2005 to September 2007.

This program is being implemented by the International Resources Group (IRG). In
planning and performing the follow-up audit, the audit team reviewed relevant
documentation pertaining to actions taken by the Mission and the partner to close and
implement the recommendations. We tested on a limited basis the effectiveness of the
new procedures related to monitoring and reporting the activities of the program such as
field trip reports, annual reports from the Mission and the partner and documentation to
support reported results. We assessed whether the procedures were working as
intended and whether the weaknesses identified in the original audit had been
addressed. The audit was conducted in the office of USAID/Senegal from September 4
through 28, 2007.

Methodology

In performing this audit, we reviewed the Mission’s written response to the audit, which
outlined the specific steps taken to correct the identified deficiencies.

For each of the six audit recommendations, we obtained documentation that reflected
the Mission’s and partner’s actions taken in response to each recommendation. The
partner’s documents included performance indicators and targets, activity monitoring trip
reports, annual reports, and training documents. We selected three indicators from the
partner’s annual reports for verification. In addition, we reviewed Mission’s data quality
assessments, contract amendments, the Performance Management Plan and Annual
Reports, and also interviewed Mission officials.

To validate the accuracy and reliability of results reported by the partner and by
USAID/Senegal we evaluated the following performance indicators: (1) amount and
percentage increase in net income; (2) number of community groups that successfully
negotiate joint ventures with partners; and (3) number of individuals (male and female)
trained.

To verify selected reports, we reviewed documentation supporting the reported data and
traced the data to source documents maintained by USAID and the partner. Our testing
procedures involved tracing USAID information to the partner’s system database, the
partner’s Annual Reports for fiscal years 2005 and 2006 and other relevant source
documents. In judging the significance of our observations, we considered errors or
variances of five percent or more to be significant and reportable.

                                                                                        5
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
